DOE/IG-0551




                              THE DEPARTMENT OF ENERGY’S
         AUDIT                  PIT PRODUCTION PROJECT
        REPORT




                                             APRIL 2002




 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
  OFFICE OF AUDIT SERVICES
                     U. S. DEPARTMENT OF ENERGY
                           Washington, DC 20585

                                 April 12, 2002


MEMORANDUM FOR THE SECRETARY


FROM:                      Gregory H. Friedman (Signed)
                           Inspector General

SUBJECT:                   INFORMATION: Audit Report on "The Department of Energy's Pit
                           Production Project"


BACKGROUND

The Department of Energy's National Nuclear Security Administration (NNSA) is responsible for
maintaining the United States' nuclear weapons stockpile and ensuring that the weapons in the
stockpile remain safe and reliable. The Department lost the capability to make plutonium pits, a
key component of nuclear weapons systems, when its Rocky Flats Plant ceased production in
1989. NNSA is currently working to reestablish the Department's production capability so that
pits removed from the weapons stockpile for testing or other purposes can be replaced. In 1996,
the Department designated the Los Alamos National Laboratory as the interim site to produce pits
for the nuclear stockpile.

The Stockpile Stewardship Plan (Stockpile Plan) describes NNSA's performance strategy for
ensuring a high confidence in the safety and reliability of the nuclear weapons stockpile. This
document, published annually, provides milestones for the production of "War Reserve" quality
pits. In the Fiscal Year (FY) 2000 Stockpile Plan, a goal was established to produce a certifiable
pit by the end of FY 2001. The following year the goal was revised. According to the May 2001
W88 Pit Manufacturing and Certification Integrated Plan (Pit Plan), the Department now plans to
manufacture a certifiable pit in FY 2003 and provide a stockpile-suitable pit in FY 2009. We
initiated this audit to determine if NNSA and Los Alamos, given the current status of the project,
can produce a certifiable pit according to the schedule set forth in the Stockpile Plan and the Pit
Plan.

RESULTS OF AUDIT

The Department's ability to produce a certifiable pit in accordance with its performance plans is at
risk. As of December 2001, over half of the approximately 40 nuclear manufacturing processes
that will be used to produce pits were behind schedule or had been delayed. While Los Alamos
asserted that the delays occurred because the original schedule was too aggressive, we identified
deficiencies in the management control process that make the on-time delivery of a certifiable pit
highly questionable. Specifically, the program lacked a robust critical path linking required work
to project milestones. If a certifiable pit is not delivered on time, the likelihood of an on-time
delivery of a stockpile-ready pit is significantly reduced. Without a stockpile-ready pit, NNSA
will be unable to conduct the destructive surveillance tests used to establish weapon reliability for
the annual stockpile certification to the President. We recommended that NNSA implement a
series of specific actions aimed at enhancing schedule controls over the pit production project.
                                               -2-


MANAGEMENT REACTION

NNSA's Deputy Administrator for Defense Programs concurred with our recommendations,
noting the "urgent and compelling national security need" to complete the W88 pit project on
schedule. The Deputy Administrator's comments are included, in their entirety, as Appendix 3.

In our December 2001 report on Management Challenges at the Department of Energy (DOE/IG-
0538), we identified Stockpile Stewardship as one of the most significant challenges facing the
Department. In that report, we noted that NNSA is confronted with a number of substantive and
substantial challenges in carrying out its stockpile surveillance program, including testing
backlogs and delays in resolving anomalies disclosed by weapons tests. In our judgment, these
previously reported issues, taken together with the issues disclosed in this report, highlight the
urgency with which the Department and NNSA must address the performance of the Stockpile
Stewardship Program.

Attachment

cc:    Chief of Staff
       Administrator, National Nuclear Security Administration
       Deputy Administrator for Defense Programs
       Director, Policy and Internal Control Management, NA-66
THE DEPARTMENT OF ENERGY'S PIT PRODUCTION PROJECT

TABLE OF
CONTENTS


                Overview

                Introduction and Objective ............................................... 1
                Conclusions and Observations ........................................ 2


                Pit Project Schedule


                Details of Finding ............................................................. 4
                Recommendations and Comments ................................. 7


                Appendices


                Scope and Methodology .................................................. 9
                Related Audit Reports ................................................... 11
                Management Comments ............................................... 13
OVERVIEW
INTRODUCTION    Maintaining the United States' nuclear weapons stockpile and ensuring
AND OBJECTIVE   that the weapons in the stockpile remain safe and reliable is the primary
                responsibility of the Department of Energy's (Department) National
                Nuclear Security Administration (NNSA). Under NNSA's surveillance
                program, weapons are randomly selected for disassembly, inspection,
                and testing for defects and problems. This testing includes destructive
                analysis of nuclear components, including one key component called
                the "pit." The pit is made from plutonium and is needed to initiate a
                nuclear weapon.

                The Department lost its capability to make pits in 1989 when the Rocky
                Flats Plant ceased production. However, in 1996, the Department
                designated the Los Alamos National Laboratory (Los Alamos) as the
                interim site to produce stockpile pits. NNSA has been reestablishing
                the Department's pit production capability so that pits removed from the
                weapons stockpile for testing or other purposes can be replaced. The
                pit production effort is currently focused on producing pits for the W88
                warhead because only one W88 pit remains available for destructive
                surveillance evaluation.

                Production of W88 pits for the stockpile involves three stages. First, a
                certifiable pit must be manufactured using qualified processes that are
                documented in work instructions so that the processes can be replicated.
                Second, engineering and physics tests must be successfully completed
                and the determination must be made that the pit will be able to perform
                equivalently to a pit produced at Rocky Flats. Once that is complete,
                the Department can use the tested processes to manufacture a certified
                pit. The third and final stage is production of pits for use in the
                stockpile.

                The Stockpile Stewardship Plan (Stockpile Plan) describes NNSA's
                strategy for ensuring a high confidence in the safety and reliability of
                the nuclear weapons stockpile. This document, published annually,
                provides milestones for the production of "War Reserve" quality pits.
                In the Fiscal Year (FY) 2000 Stockpile Plan, a goal was established to
                produce a certifiable pit by the end of FY 2001. However, the FY 2001
                Stockpile Plan, along with the May 2001 W88 Pit Manufacturing and
                Certification Integrated Plan (Pit Plan), revised that goal. Both plans
                now set a schedule to manufacture a certifiable pit in FY 2003 and
                Provide a stockpile-suitable certified pit during FY 20091. If produced



                1
                 This date was recently accelerated to 2007, as shown in a January 17, 2002, memo
                addressed to the Department of Defense by NNSA's Acting Deputy Administrator for
                Defense Programs.

Page 1                                                          Introduction and Objective
                  on target, the project is estimated to cost $1.7 billion. We initiated this
                  audit to determine if NNSA and Los Alamos would be able to produce
                  a certifiable pit according to the schedule set forth in the Stockpile Plan
                  and the Pit Plan.


CONCLUSIONS AND   The Department's ability to produce a certifiable pit on schedule was at
OBSERVATIONS      risk. We determined that, as of December 2001, over half of the
                  approximately 40 nuclear manufacturing processes that will be used to
                  produce pits were behind schedule or had been delayed. While Los
                  Alamos asserted that the delays occurred, in part, because the schedule
                  was too aggressive, we also identified deficiencies in key schedule
                  controls. Specifically, Los Alamos lacked an integrated critical path
                  linking required work to the appropriate milestones. If a certifiable pit
                  is not delivered on schedule, the likelihood of an on time delivery of a
                  certified pit is reduced. Without a certified pit, NNSA is unable to
                  conduct the destructive surveillance tests used to establish weapon
                  reliability for the annual certification to the President.

                  NNSA officials stated that Los Alamos was taking action to reduce
                  schedule delays to ensure that the goal of producing a certifiable pit by
                  2003 would be met. NNSA and Los Alamos officials also pointed out
                  that some prior work had been completed on or before scheduled dates.
                  In addition, the NNSA pit project manager stated that if a certified pit is
                  not manufactured by 2007, new methods of acquiring data to confirm
                  weapon performance would be needed.

                  The Office of Inspector General recently issued several related reports.
                  In Management of the Nuclear Weapons Production Infrastructure
                  (DOE/IG-0484, September 2000), we reported that a deteriorating
                  infrastructure had contributed to delays in weapons modification,
                  manufacture and dismantlement, and surveillance testing of weapon
                  components. We subsequently noted in Stockpile Surveillance Testing
                  (DOE/IG-0528, October 2001), that the Department had not met many
                  of its internally generated milestones for component tests and other
                  tests, which resulted in a lack of critical information on the reliability of
                  nuclear weapon systems. Finally, in Management of the Stockpile
                  Surveillance Program's Significant Finding Investigations (DOE/IG-
                  0535, December 2001), we reported that the Department had not been
                  meeting internally established timeframes for initiating and conducting
                  investigations of defects and malfunctions in nuclear weapons. In our
                  opinion, these previously reported issues, coupled with the issues
                  disclosed in this report, suggest that the goals of the Stockpile
                  Stewardship Program may be at risk for not being met in a timely
                  manner.

Page 2                                                    Conclusions and Observations
         The audit identified issues that management should consider when
         preparing its year-end assurance memorandum on internal controls.




                                     ______(Signed)_________
                                     Office of Inspector General




Page 3                                       Conclusions and Observations
PIT PROJECT SCHEDULE
Schedule Delays   Although Los Alamos met its FY 2001 interim project milestones, work
                  that was critical to meeting later milestones was encountering delays.
                  Specifically, completion dates for many of the activities associated with
                  qualifying manufacturing processes were behind schedule or delayed,
                  and detailed procedures required for manufacturing had not been
                  completed.

                  As of November 2001, planned dates for several of the activities to
                  qualify the processes were behind schedule or had been delayed for
                  between 1 and 5 months. Processes with activities that were behind
                  schedule included methods to:

                     •   abrasively clean plutonium surfaces to remove oxides;
                     •   machine and shape components of the pit's shell; and,
                     •   inspect the circumference of a weld.

                  To be considered qualified, a manufacturing process must have been
                  demonstrated to be within control limits, producing acceptable product,
                  and approved by the design agency.

                  At the end of September 2001, nine of the approximately 40 nuclear
                  manufacturing processes that will be used to produce pits were behind
                  schedule or had been delayed. By December 1, 2001, this number had
                  increased to 22. Because the schedule to produce a certifiable pit in
                  FY 2003 is tight, any delay in meeting process completion dates has the
                  potential to affect delivery of a certifiable pit on schedule.

                  In addition, detailed step-by-step procedures for manufacturing pits,
                  called Work Instructions, had not been completed as planned. The
                  Work Instructions must be completed and in place before a certifiable
                  pit can be delivered. We found that, while 30 of the instructions were
                  drafted, none of the approximately 40 required instructions were
                  finalized in FY 2001 as originally planned. A July 2001 Baseline
                  Change Request allowed for the delayed delivery of the Work
                  Instructions until the second quarter of FY 2003.

                  Los Alamos' reports also showed that the project was behind schedule
                  in other areas of work, such as manufacturing systems and equipment
                  upgrades. According to the NNSA pit project manager, Los Alamos
                  was taking action to reduce delays and such action was essential to
                  reduce the risk that they would not deliver a certifiable pit in FY 2003.




Page 4                                                                 Details of Finding
Importance of Pit   In 1993, the President and the Congress directed that a science-based
Project Success     Stockpile Stewardship Program be developed to maintain the United
                    States stockpile of nuclear weapons without nuclear testing. The annual
                    Stockpile Plan, developed to ensure the vitality and integrity of the
                    Stockpile Stewardship Program, has evolved in response to that
                    directive. The success of the program, according to the Stockpile Plan,
                    rests on developing a set of scientific tools to better understand nuclear
                    weapons, enhancing stockpile surveillance capabilities, and completing
                    the manufacturing program needed to extend the life of our nuclear
                    weapons. The performance of stockpile surveillance tests that depend,
                    in part, on the manufacture of certified pits, is critical to the program.

                    The importance of Los Alamos' role in the success of the program is
                    illustrated by the statement of the Los Alamos Director, in April 2001,
                    that the Laboratory's highest priority was reestablishing the nation's
                    capability to manufacture pits. Success in meeting project schedule
                    depends upon program management and execution.

                    Consistent with the contract between Los Alamos and the Department,
                    the pit project should be planned and executed based on clear work
                    scope, milestones, and deliverables using appropriate project
                    management principles and tools. Los Alamos has chosen to use a
                    critical path as one of its key management tools. This type of detailed
                    schedule links interdependent activities to milestone dates, thereby
                    allowing management not only to forecast the earliest possible
                    completion date, but also to identify single or multiple delays that may
                    impact the entire schedule. For a critical path to be useful in managing
                    a project's schedule, however, work activities need to be logically
                    linked.

Improvement in      According to Los Alamos officials, delays were the result of an overly
Schedule Controls   aggressive schedule that was developed without adequate consultation
Needed              with those responsible for designing and implementing the processes.
                    However, we also identified significant deficiencies in key schedule
                    controls. Specifically, interdependent work activities were not always
                    logically linked in Los Alamos' project management software, thus
                    rendering the critical path produced by the software of questionable
                    value for managing the project's schedule. For example, about 10,000
                    distinct work activities were identified in the FY 2001 pit project
                    schedule. By the end of FY 2001, about 2,000 activity linkages had not
                    been made in the project management software that is used to produce
                    the project's critical path. A Los Alamos Technical Advisory Panel also
                    questioned the usefulness of a critical path with missing schedule
                    interdependencies.


Page 5                                                                   Details of Finding
         While Los Alamos finished linking all of the activities during the first
         quarter of FY 2002, some of the linkages appeared to be illogical.
         Several activities that needed to be completed before a certifiable pit
         could be produced, for instance, were erroneously linked to the project
         completion date of 2007. Because the activities were linked to the
         project's finish, the software used to create the critical path calculated
         that there were over 1,400 workdays available to do the work–at least 4
         years beyond when they needed to be done. The concerns we identified
         regarding the logic and sequencing of the linkages of these activities
         made the usefulness of the critical path questionable for managing the
         project, forecasting the deliverance of a certifiable pit, and identifying
         the impact of delays. Los Alamos asserted that since the illogical
         linkages involved tasks having no significant impact on the critical
         path, its critical path schedule was valid. Those assertions, however,
         could not be verified while the flaws in linkages still existed.

         In addition to weaknesses in the critical path, the FY 2001 work
         packages prepared by Los Alamos were of limited value for measuring
         schedule performance. To be useful, a work package should contain a
         results-oriented statement of work along with the promised
         deliverables, target milestones, resource requirements, planning
         assumptions, and requisite budgets. However, many of Los Alamos'
         packages lacked milestone dates showing when deliverables were due.
         Where milestones were lacking, line managers lacked an objective basis
         for reporting schedule variance.

         Los Alamos acknowledged that the laboratory's work packages for
         FY 2001 were weak in certain matters. However, the Laboratory stated
         that its use of work packages was not mandated and attributed
         deficiencies in the work packages to the fact that they were prepared
         early in the year, well before the milestones in the Pit Plan were
         finalized. The Laboratory added that developing a fully integrated and
         comprehensive set of FY 2001 work packages would not have been a
         prudent investment in late FY 2001. Instead, the decision was made to
         focus on a comprehensive set of work packages for FY 2002.

         We examined the FY 2002 work packages that existed in December
         2001 and found them to be improved. However, some still lacked
         milestones and did not clearly relate work scope to deliverables. In
         addition, assumptions used in developing the work packages were not
         always stated.




Page 6                                                        Details of Finding
                          Another schedule control weakness involved target activity completion
                          dates. During FY 2001, Los Alamos did not "lock in" the original
                          target activity completion dates that were entered into the project
                          management software, which allowed the dates to be altered
                          indiscriminately. This practice, combined with the practice of not
                          archiving the files containing target dates, made it difficult to track—for
                          the thousands of work activities comprising the program—the work
                          activities for which target dates had been pushed back, the frequency
                          with which target dates were revised, and the amount of time by which
                          target dates had been pushed back.

Annual Certification to   If Los Alamos is unable to produce pits according to schedule, the
the President             Department’s ability to conduct required tests in support of its stockpile
                          surveillance program may be undermined. Weapon surveillance
                          testing, a key component of NNSA's Stockpile Stewardship Program,
                          has been characterized as the first line of defense for maintaining high
                          confidence in the nuclear weapons stockpile and the linchpin between
                          stewardship activities and the annual stockpile certification process. In
                          the past, surveillance has included destructive testing of pits.
                          Therefore, since only one W88 pit is available for destructive
                          surveillance evaluation, any delay in delivery of a certified pit could
                          affect, at some point, the capabilities of the nation's strategic forces.
                          This was the conclusion of a Department of Defense official familiar
                          with NNSA's pit project. In addition, the NNSA pit project manager
                          acknowledged that, if destructive surveillance testing cannot be done
                          because replacement pits are not available in FY 2007, new methods of
                          acquiring the data required to establish weapon reliability would need
                          to be developed.


RECOMMENDATIONS           We recommend that the NNSA Pit Project Manager direct Los Alamos
                          to:

                               1. Logically link all related work activities for manufacturing
                                  and certification within the critical path;
                               2. Periodically (at least quarterly) review for accuracy all
                                  changes entered into the project management software using
                                  approved baseline change procedures;
                               3. Ensure that all work packages have deliverables, milestones,
                                  and assumptions identified for the work scope described in the
                                  work packages; and,
                               4. "Lock in" the target dates for work completion that have been
                                  entered into the project management software.



Page 7                                                      Recommendations and Comments
MANAGEMENT         In response to a draft of this report, NNSA's Deputy Administrator for
COMMENTS           Defense Programs stated that the report was generally accurate and
                   concurred with the recommendations. The Deputy Administrator also
                   noted the "urgent and compelling national security need" for NNSA and
                   Los Alamos to complete the W88 pit project on schedule. The Deputy
                   Administrator's comments are included in their entirety as Appendix 3.


AUDITOR COMMENTS   Management's current and planned corrective actions are responsive to
                   the recommendations.




Page 8                                             Recommendations and Comments
Appendix 1
SCOPE         The audit was performed from May 2001, through December 2001, at
              Department Headquarters in Washington, D.C., and Germantown,
              Maryland; Albuquerque Operations Office in Albuquerque, New
              Mexico; and Los Alamos National Laboratory in Los Alamos, New
              Mexico. The audit scope included the manufacturing and certification
              programs; however, our audit work focused primarily on manufacturing
              because the majority of Los Alamos' work had been for manufacturing.


METHODOLOGY   In order to accomplish the audit objective, we:

                 •   Reviewed the Pit Plan, the FY 2000 and 2001 Stockpile
                     Stewardship Plans, and earlier, related planning documents;
                 •   Examined project schedule control documentation, including
                     variance reports, the critical path schedule, timeline charts, work
                     packages, baseline change requests, and the Major Program
                     Deliverables Document and its related progress reports;
                 •   Interviewed NNSA Headquarters, Albuquerque Operations
                     Office, Los Alamos, and Department of Defense officials about
                     pit project schedules and schedule controls; and,
                 •   Reviewed Department policies and procedures related to project
                     management.

              We did not attempt to determine the number of work activities that
              were not logically linked. We subjectively selected a few activities for
              tracing linkages—as shown in the output of the project management
              software—from beginning to end.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits, and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Internal controls
              were assessed with respect to management of the pit project schedule.
              Because our review was limited, it would not necessarily have disclosed
              all internal control deficiencies that may have existed at the time of our
              audit.

              While we assessed the reliability of computer-processed data, we did
              not rely solely on such data to satisfy our audit objective. As noted in
              the body of the report, our review of computer-processed data revealed
              internal control deficiencies that failed to prevent, or to detect in a




Page 9                                                     Scope and Methodology
          timely manner, the existence of corrupted or erroneous data in the
          project management software used by Los Alamos to establish the
          critical path.

          We held an exit conference with the NNSA pit project manager on
          January 16, 2002.




Page 10                                               Scope and Methodology
Appendix 2
                                   RELATED AUDIT REPORTS

    Office of Inspector General

    •     Management of the Stockpile Surveillance Program's Significant Finding Investigations
          (DOE/IG-0535, December 2001). The Directors of the three Department nuclear weapons
          laboratories annually assess and report the condition of the weapons systems for which
          their laboratories are responsible. A critical event in this process is the identification of a
          weapon defect or malfunction during surveillance testing. The Department had not been
          meeting internally established timeframes for initiating and conducting investigations of
          defects and malfunctions.

    •     Stockpile Surveillance Testing (DOE/IG-0528, October 2001). The Department had not
          met many of its flight, laboratory, and component testing milestones. This resulted in a
          significant testing backlog that was projected to continue for several years. When tests are
          delayed or are not completed, the Department lacks critical information on the reliability of
          the specific weapons involved. Without needed test data, the Department's ability to assign
          valid reliability levels to some weapon systems is at risk.

    •     Management of the Nuclear Weapons Production Infrastructure (DOE/IG-0484,
          September 22, 2000). The audit disclosed that the nuclear weapons infrastructure had not
          been adequately maintained and current and future goals of the Stockpile Stewardship
          Program were at risk.

    General Accounting Office

    •     Nuclear Weapons: Improved Management Needed to Implement Stockpile Stewardship
          Program Effectively (GAO-01-48, December 2000). Although the Office of Defense
          Programs had taken steps to address principal challenges facing the Stockpile Stewardship
          Program, additional improvements were needed. Specifically, improvements were needed
          in order to (1) remedy weaknesses in the program's planning process, (2) ensure that
          required budget information for effective cost management was available, (3) correct
          organizational and leadership deficiencies, and (4) develop an effective management
          process for overseeing the life extension program for nuclear weapons.

    •     Nuclear Weapons: Key Nuclear Weapons Component Issues Are Unresolved (GAO/
          RCED-99-1, November 1998). The Department's plans for reestablishing the production
          of pits at Los Alamos had changed and were still evolving. The Department expected to
          have only a limited capacity on-line by FY 2007. Managerial controls were still in their
          formative stages.




Page 11                                                                              Related Audit Reports
   Other Reports

   •   FY 2000 Report to Congress of the Panel to Assess the Reliability, Safety, and Security of
       the United States Nuclear Stockpile (February 2001). This Congressionally established
       panel found a disturbing gap between the nation's declaratory policy that maintenance of a
       safe and reliable nuclear stockpile is a supreme national interest and the actions taken to
       support this policy.

   •   Strategic Review of the Surveillance Program 150-Day Report (January 2001). This
       strategic review was initiated by NNSA to define the surveillance approach that would be
       most appropriate to assure the continued safety and reliability of the nation's nuclear
       stockpile. The team identified possible changes and improvements needed in the program
       to meet the needs of an aging stockpile with limitations on testing and an increasing need to
       preserve stockpile assets.




Page 12                                                                          Related Audit Reports
Appendix 3




Page 13      Management Comments
Page 14   Management Comments
Page 15   Management Comments
                                                                     Report No.: DOE/IG-0551


                              CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have
any questions about your comments.

Name____________________________________Date________________________________

Telephone________________________________Organization__________________________

When you have completed this form, you may fax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

               Office of Inspector General (IG-1)
               U.S. Department of Energy
               Washington, D.C. 20585
               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:


                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov


       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
